No. 18A-_____
IN THE
SUPREME COURT OF THE UNITED STATES

WALID JAMMAL, KATHLEEN TUERSLEY, CINDA J. DURACHINSKY,
AND NATHAN GARRETT,

Applicants,
v.
AMERICAN FAMILY INSURANCE COMPANY, AMERICAN FAMILY MUTUAL INSURANCE
COMPANY, AMERICAN FAMILY LIFE INSURANCE COMPANY, AMERICAN STANDARD
INSURANCE COMPANY OF WISCONSIN, AMERICAN FAMILY TERMINATION BENEFITS
PLAN, RETIREMENT PLAN FOR EMPLOYEES OF AMERICAN FAMILY INSURANCE GROUP,
AMERICAN FAMILY 401K PLAN, GROUP LIFE PLAN, GROUP HEALTH PLAN, GROUP
DENTAL PLAN, LONG TERM DISABILITY PLAN, AMERICAN FAMILY INSURANCE GROUP
MASTER RETIREMENT TRUST, 401K PLAN ADMINISTRATIVE COMMITTEE, COMMITTEE
OF EMPLOYEES AND DISTRICT MANAGER RETIREMENT PLAN,

Respondents.

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

Charles J. Crueger
Erin K. Dickinson
CRUEGER DICKINSON LLC
4532 North Oakland Avenue
Whitefish Bay, WI 53211
Edward A. Wallace
Kara A. Elgersma
WEXLER WALLACE LLP
55 West Monroe Street,
Suite 3300
Chicago, IL 60603

Brian H. Fletcher

Counsel of Record

STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
TO:

Justice Sotomayor, Circuit Justice for the United States Court of

Appeals for the Sixth Circuit:
Applicants Walid Jammal, Kathleen Tuersley, Cinda J. Durachinsky, and
Nathan Garrett respectfully request, under Rules 13.5 and 22 of the Rules of this
Court, an extension of fifty-nine days within which to file a petition for a writ of
certiorari. Their forthcoming petition will challenge the Sixth Circuit’s decision in

Jammal v. American Family Insurance Co., 914 F.3d 449 (6th Cir. 2019), a copy of
which is attached. In support of this application, Applicants provide the following
information:
1.

The Sixth Circuit issued its judgment on January 29, 2019, and denied

a timely petition for rehearing and rehearing en banc on March 25, 2019. App. 26a27a. Without an extension, the petition for a writ of certiorari would therefore be
due on June 24, 2019 (Monday). With the requested extension, the petition would be
due on August 22, 2019.
2.

This case is a serious candidate for certiorari review because it

squarely and cleanly presents an important standard-of-review question on which
the courts of appeals are openly divided.
a.

The Employee Retirement Income Security Act of 1974 (ERISA), 29

U.S.C. §§ 1001 et seq., protects “employees” but not independent contractors.

Nationwide Mut. Ins. Co. v. Darden, 503 U.S. 318, 320-21 (1992). This Court has
1

held that ERISA and other federal statutes that use the term “employee” must be
construed to “incorporate traditional agency law criteria” to distinguish employees
from independent contractors. Id. at 319. The common-law test focuses on “the
hiring party’s right to control the manner and means by which the [work] is
accomplished” and requires consideration of the totality of the circumstances,
including a non-exhaustive list of relevant factors. Id. at 323 (citation omitted).
b.

Applicants represent a class of current and former agents of American

Family Insurance Company. Because American Family purports to classify its
agents as independent contractors, its agent pension plan does not comply with
ERISA’s minimum protections. Applicants contend that despite their nominal
independent-contractor status, American Family’s pervasive control over their
work—which far exceeds industry norms—means that they are in truth employees.
They brought this action seeking relief for American Family’s failure to administer
an ERISA-compliant pension plan. App. 3a.
After a twelve-day trial, the district court found—in agreement with the
verdict of an advisory jury—that Applicants are employees. App. 3a-5a. In so doing,
the court considered the totality of the circumstances bearing on American Family’s
control of their work and made detailed findings on the existence and degree of each
of the Darden factors. Id. 8a.
c.

The district court certified its order for interlocutory appeal under 28

U.S.C. § 1292(b), and a divided panel of the Sixth Circuit reversed. App. 1a-25a. The
panel majority acknowledged that Applicants had presented “significant evidence to
2

support their claim that American Family treats them more like employees than
independent partners.” Id. 4a. And the majority disagreed “with only a few aspects
of the district court’s analysis of the Darden factors.” Id. 17a (Clay, J., dissenting);

see id. 10a n.4 (majority opinion). But the majority nonetheless held that Applicants
are independent contractors with no rights under ERISA. Id. 15a.
The linchpin of the majority’s decision was its holding on the applicable
standard of review. Rejecting decisions by other courts of appeals that have
“explicitly considered this question,” the majority held that a district court’s
findings on both the ultimate question of employment status and the “existence and
degree of each Darden factor” must be reviewed de novo rather than for clear error.
App. 9a (citing decisions from the Second, Eighth, and Tenth Circuits).
Judge Clay dissented. App. 16a-25a. He emphasized that the majority’s
standard-of-review holding departed from the decisions of every other court of
appeals to consider the question. Id. 18a-19a. He also explained that the district
court’s finding that Applicants are employees should have been affirmed even under
the majority’s novel de novo standard. Id. 20a-25a.
d.

The circuits are thus openly divided on the standard of review for a

district court’s finding of employee status under the common-law test. Indeed, the
conflict is broader and deeper than the panel majority realized. See, e.g., Daughtrey

v. Honeywell, Inc., 3 F.3d 1488, 1493-94 & nn. 8-10 (11th Cir. 1993) (collecting
conflicting decisions from six circuits). And the question presented is extremely
important: Disputes about employment status are a common feature of ERISA
3

litigation, and the same question also arises under other oft-litigated federal
statutes that incorporate the common-law test—including the Internal Revenue
Code, Title VII, the Age Discrimination in Employment Act, and the Americans
with Disabilities Act.
3.

This application is not filed for purposes of delay. Applicants have

affiliated with with the undersigned counsel at the Stanford Law School Supreme
Court Litigation Clinic for purposes of seeking this Court’s review. The extension is
needed for undersigned counsel and other members of the Clinic to fully familiarize
themselves with the voluminous trial record, the decisions below, and the relevant
case law. In light of the Clinic’s many other obligations in this Court, including two
merits briefs and several certiorari-stage filings due in the next several weeks, the
Clinic would not be able adequately to complete those tasks by the current due date.
Applicants’ other counsel also have substantial professional obligations in the
coming months, including dispositive-motions briefing and other pre-trial deadlines
in a complex multi-district case, In re National Opiate Litig., MDL No. 1:17-cv-2804
(N.D. Ohio).
4.

For these reasons, Applicants respectfully request that the due date for

their petition for a writ of certiorari be extended to and including August 22, 2019.

4

Respectfully submitted this 6th day of June, 2019.

By:
Charles J. Crueger
Erin K. Dickinson
CRUEGER DICKINSON LLC
4532 North Oakland Avenue
Whitefish Bay, WI 53211

Brian H. Fletcher

Counsel of Record

STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu

Edward A. Wallace
Kara A. Elgersma
WEXLER WALLACE LLP
55 West Monroe Street,
Suite 3300
Chicago, IL 60603

5

